No._______________
IN THE SUPREME COURT OF THE UNITED STATES

BENJAMIN SMILEY,
Petitioner,
v.
STATE OF FLORIDA
Respondent

PROOF OF SERVICE
I, Robert A. Norgard, do swear or declare that on this date, OCTOBER 1,
2020, as required by Supreme Court Rule 29, I have served the enclosed MOTION
FOR LEAVE TO PROCEED IN FORMA PAUPERIS, PETITION FOR WRIT OF
CERTIORARI and APPENDIX TO PETITION FOR WRIT OF CERTIORARI on
each party to the above proceedings or that party’s counsel, and on every other
person required to be served, by depositing an envelope containing the above
documents in the United States mail properly addressed to each of them and with
first-class postage prepaid, or by delivery to a third-party commercial carrier for
delivery within 3 calendar days and by electronic service.
The names and address of those served are as follows:
Office of the Attorney General
3507 E. Frontage Road, Suite 200
Tampa, FL 33607-7013
(813)287-7910
capapp@myfloridalegal.com

1

I declare under penalty of perjury that the foregoing is true and correct.
Executed on OCTOBER 6, 2020.

/s/ Robert A. Norgard

ROBERT A. NORGARD

Member of the Bar of the
United States Supreme Court
Counsel of Record
P.O. Box 811
Bartow, FL 33831
(863)533-8556
Fax (863)533-1334
Norgardlaw@verizon.net
Fla. Bar No. 322059

/s/Andrea M. Norgard
ANDREA M. NORGARD

Appointed Counsel of RecordState Court-Florida
P.O. Box 811
Bartow, FL 33831
(863) 533-8556
Fax (863)533-1334
Norgardlaw@verizon.net
Fla. Bar No. 0661066

2

